U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Khalil v. Jaddou, No. 21-199
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 9,
2021, and placed on the Court’s docket on August 11, 2021. The response of the United States is
now due, after one extension, on October 12, 2021. We respectfully request, under Rule 30.4 of
the Rules of this Court, a further extension of time to and including November 12, 2021, within
which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of
previously assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0199
KHALIL, MOHAMMAD SHARIF
UR JADDOU, DIRECTOR, UNITED STATES
CITIZENSHIP AND IMMIGRATION SERVICES, ET
AL.

KATHRYN HELEN BRADY
CONSTITUTIONAL LAW CENTER FOR
MUSLIMS IN AMERICA
100 N. CENTRAL EXPY.
SUITE 1010
RICHARDSON, TX 75080
972-914-2507
KBRADY@CLCMA.ORG

